<html>
<title> - DEATH IN CUSTODY REPORTING ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                 DEATH IN CUSTODY REPORTING ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2908

                               __________

                             JULY 24, 2007

                               __________

                           Serial No. 110-113

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov








                     U.S. GOVERNMENT PRINTING OFFICE

37-008 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001










                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel




















                            C O N T E N T S

                              ----------                              

                             JULY 24, 2007

                                                                   Page

                                THE BILL

H.R. 2908, the ``Death in Custody Reporting Act of 2007''........     3

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     6

                               WITNESSES

Mr. Jeffrey Sedgwick, Director, Bureau of Justice Statistics, 
  Office of Justice Programs, U.S. Department of Justice, 
  Washington, DC
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Mr. Charles Sullivan, Executive Director and Co-Founder, 
  International Citizens United for Rehabilitation of Errants, 
  Washington, DC
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19
Ms. Jenni Gainsborough, Washington Office Director, Penal Reform 
  International, Washington, DC
  Oral Testimony.................................................    19
  Prepared Statement.............................................    22
Ms. Mary Scott, Mother of Jonathan Magbie, Mitchellville, MD
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26

                                APPENDIX

Material Submitted for the Hearing Record........................    39





















 
                 DEATH IN CUSTODY REPORTING ACT OF 2007

                              ----------                              


                         TUESDAY, JULY 26, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:49 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Waters, Delahunt, Johnson, 
Davis, Baldwin, Forbes, Sensenbrenner, Coble, and Chabot.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Gregory Barnes, Majority Counsel; Mario Dispenza, Majority 
Counsel; Veronica L. Eligan, Professional Staff Member; Michael 
Volkov, Minority Counsel; and Caroline Lynch, Minority Counsel.
    Mr. Scott of Virginia. The Subcommittee will now come to 
order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
2908, the ``Death in Custody Reporting Act of 2007.''
    The hearing will focus on the rationale for reauthorizing 
the ``Death in Custody Reporting Act of 2000,'' which expired 
on December 31, 2006. That bill had bipartisan support, created 
a uniform system for the reporting of deaths in law enforcement 
custody to the United States Department of Justice.
    Although it is a preliminary conclusion and needs to be 
confirmed by research and analysis, it appears that the act has 
contributed to the decline in death rates among those in 
various categories of law enforcement custody.
    Before the enactment of the ``Death in Custody Reporting 
Act of 2000,'' states had no uniform requirements for reporting 
the circumstances surrounding the death of persons in custody. 
The lack of uniform reporting requirements made it impossible 
to ascertain the percentage of deaths by suicide and homicides 
or from natural causes, which, in turn, made oversight of the 
treatment of those in custody inadequate.
    Consequently, an environment of suspicion arose surrounding 
over 1,000 deaths which were believed to have occurred in 
custody situations each year. Many of those that were ruled 
suicide or deaths from natural causes were suspected of being 
homicides committed either by officers or other prisoners.
    However, the indifference to prisoners' rights and safeties 
of those in custody made scrutiny of suspected death the low 
priority and deaths of questionable cause were rarely 
investigated.
    From the mid-1980's to the enactment of the ``Death in 
Custody Reporting Act,'' researchers and activists scrutinized 
the death rate in the Nation's jails and prisons and found very 
little reporting of the circumstances surrounding the deaths. 
In fact, by 1986, only 25 States and the District of Columbia 
even had jail inspection units.
    Moreover, even the States that did report deaths differed 
in basic reporting standards. Insufficient data and the lack of 
uniformity of the data collected made oversight of prisoner 
safety woefully inadequate.
    However, the interest in oversight that emerged through the 
researchers and activists shed light on conditions in local and 
State jails, which began a rising tide of wrongful death 
litigation. The increasing litigation forced some measure of 
accountability and conditions somewhat improved.
    Moreover, activism and news of litigation spurned media 
interest, which shed further light on the conditions.
    The watershed moment of bringing death in custody rates to 
national attention occurred in 1995. After conducting a 1-year 
investigation into prison conditions and the death rate of 
prisoners in custody, the Asbury Park Press of New Jersey ran a 
series of award-winning editorials that brought the seriousness 
of the lack of reporting to the Nation's attention.
    The editorials went on to detail abuses, including racism, 
overzealous police interrogations, cover-up and general police 
incompetence, which prompted Congressional action.
    Following successive introduction of bills in several 
Congresses with my Republican colleagues from Arkansas, first, 
Representative Tim Hutchinson and then-Representative Asa 
Hutchinson, the ``Death in Custody Reporting Act of 2000'' was 
passed. The law required States receiving certain Federal funds 
to comply with the reporting requirements established by the 
attorney general.
    Since the enactment of the act, the Bureau of Justice 
Statistics, the BJS, has compiled a number of statistics 
detailing not only the circumstances of prisoner death, but the 
rates of death in prisons versus jails and the rates of death 
based on the sizes of the various facilities.
    With the detailed statistical data, policy-makers, both 
State and local, are able to make informed policy judgments 
about the treatment of persons in their custody, which has 
assisted in lowering the death rate. In fact, since the focus 
on death in custody emerged in the mid 19890's the latest BJS 
report, dated August 2005, shows a 64 percent decline in 
suicides and a 93 percent decline in the homicide rate.
    To continue this success, this hearing will hear testimony 
as part of the consideration of whether to reauthorize Public 
Law 106-297 as the ``Death in Custody Reporting Act of 2007.''
    [The bill, H.R. 2908, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott of Virginia. It is now my pleasure to recognize 
my Virginia colleague, the gentleman from Virginia's 4th 
Congressional District, the Ranking Member of the Subcommittee, 
Randy Forbes.
    Mr. Forbes. Thank you, Chairman Scott. And I appreciate 
your leadership for many years on this important issue, and I 
support your efforts to monitor the rate of deaths in custody.
    We have found common ground on the importance of continued 
oversight of Federal and State prisons. I am a strong advocate 
for tough penalties, particularly for violent offenders. The 
important goal of our criminal justice system can and should be 
pursued, while, at the same time, providing proper health-care 
services to prisoners.
    I wish to extend a very special welcome to Ms. Mary Scott, 
who has graciously agreed to share her story with us today. Ms. 
Scott's son, Jonathan Magbie, died in the D.C. Correctional 
Treatment Facility in September 2004, 4 days into a 10-day jail 
sentence for possession of marijuana.
    Jonathan was 4 years old when he was hit by a drunk driver, 
leaving him with limited to no use of his arms and no use of 
his legs. He suffered numerous ailments as a result of his 
injuries and required constant care. Sadly, Jonathan's death 
could have been prevented and should serve as an example for 
proper health care in Federal and State prison facilities.
    The Bureau of Justice Statistics reports that there were 
15,308 State prisoner deaths between 2001 and 2005. Likewise, 
there were an additional 5,935 local prisoner deaths and 43 
juvenile deaths between 2000 and 2005. Between 2001 and 2004, 
half of all State prisoner deaths were the result of heart 
diseases and cancer. Two-thirds involved inmates aged 45 or 
older, and two-thirds were the result of medical problems which 
were present at the time of admission.
    Although illness-related deaths have slightly increased in 
recent years, the homicide and suicide rates in State prisons 
have dramatically decreased over the last 25 years.
    I look forward to hearing from today's witnesses about the 
significance of these trends, and I yield back the balance of 
my time.
    Mr. Scott of Virginia. Thank you.
    Without objection, other statements will be placed into the 
record.
    We have a very distinguished panel of witnesses today to 
help us consider the reauthorization of the ``Death in Custody 
Reporting Act.''
    Our first witness will be Jeffrey Sedgwick, the director of 
the Bureau of Justice Statistics, where he oversees the 
collection of data required by the ``Death in Custody Reporting 
Act.'' As a professor at the University of Massachusetts, Mr. 
Sedgwick has authored a number of articles on law enforcement, 
criminal justice policy and policy analysis. He has a B.A. 
degree from Kenyon College, an MAPA and Ph.D. from the 
University of Virginia. And after earning his Ph.D., he joined 
the University of Massachusetts faculty and is presently on 
leave from that position.
    Our next witness will be Mr. Charles Sullivan, executive 
director and co-founder of the International Citizens United 
for Rehabilitation of Errants, or CURE. CURE is a grassroots 
organization dedicated to reducing crime through reform of the 
criminal justice system. CURE was instrumental in passing the 
``Death in Custody Reporting Act'' in the state of Texas in 
1983. And after seeing the passage in Texas, Mr. Sullivan and 
CURE worked with Members of Congress toward a national 
reporting bill, which became the ``Death in Custody Reporting 
Act of 2000.'' He has a bachelor's degree in philosophy from 
St. Mary's College and a master's in history from Notre Dame 
Seminary in New Orleans.
    Our next witness is Ms. Jenni Gainsborough, director of the 
Washington office of Penal Reform International. PRI has 
officers throughout the world, developing and implementing 
programs to improve access to justice and to ensure the humane 
treatment of prisoners in accordance with the international 
human rights laws and standards. PRI also works to reduce the 
imprisonment through alternatives to incarceration and for the 
abolition of the death penalty. Prior to joining PRI in 2002, 
she was a senior policy analyst with the Sentencing Project. 
Before that, she was a public policy coordinator of the ACLU's 
national prison project. She began her career in criminal 
justice working with a Department of Justice program for 
serious habitual juvenile offenders. She has a B.A. in 
education in English from the University of London and an MBA 
from Pepperdine University in California.
    And our final witness will be Ms. Mary Scott. She has 
approximately 35 years of Federal service and currently works 
for the Federal Government at the U.S. Army Human Resources 
Command in Alexandria. She is a mother of five children and 
several grandchildren. And one of her children, as the Ranking 
Member has indicated, was incarcerated in Washington, DC, and 
died shortly after his incarceration. Ms. Scott was born and 
raised in Washington, DC, and is a graduate of Theodore 
Roosevelt High School.
    Now, each of our witnesses' written statements will be 
entered into the record in its entirety. I would ask each 
witness to summarize his or her testimony in 5 minutes or less.
    And to help you stay within that time, there is a timing 
device on the table. When the light switches from green to 
yellow, you will have approximately 1 minute to conclude your 
testimony. And when the light turns red, it signals that the 
witness's 5 minutes have expired.
    We will now begin with Mr. Sedgwick.

  TESTIMONY OF JEFFREY SEDGWICK, DIRECTOR, BUREAU OF JUSTICE 
  STATISTICS, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Mr. Sedgwick. Chairman Scott, Ranking Member Forbes and 
distinguished Members of the Committee, I am Jeffery Sedgwick, 
director of the Bureau of Justice Statistics.
    BJS is the official statistical agency of the United States 
Department of Justice and a component of the Office of Justice 
Programs.
    I am pleased to be here today to discuss the ``Deaths in 
Custody Reporting Act.''
    The health and well-being of persons subject to the custody 
of law enforcement and correctional authorities is an important 
issue in criminal justice. Collecting and reporting data on 
deaths in custody is also an important part of the Office of 
Justice Programs' mission to improve the fair administration of 
justice across America and of the Bureau of Justice Statistics' 
mission to collect, process, analyze and disseminate accurate 
and timely information on crime and the administration of 
justice.
    Mr. Chairman, BJS is committed to fulfilling the data 
collection and reporting provisions of DCRA. I am pleased to 
report that the Bureau has been successful in initiating the 
statistical activities of the Act.
    As a result of BJS's comprehensive collection effort, there 
is 100 percent coverage of State prisons and over 99 percent 
coverage for local jails and state-operated juvenile systems.
    Further, BJS developed the data collection covering State 
and local law enforcement agencies in more than 40 States. 
Between 2000 and 2005, the latest year for which complete data 
are available, BJS has collected and processed records on more 
than 15,000 deaths in State prisons, nearly 6,000 deaths in 
local jails, and 2,000 deaths in the process of arrest or 
transfer to detention.
    Since the Act was passed, BJS has released two 
groundbreaking reports on deaths in custody, a special report 
on suicide and homicide in State prisons and local jails and a 
report on medical causes of death in State prisons. These 
reports offered the first opportunity to analyze the personal 
characteristics, current offenses and environmental factors 
surrounding the inmate deaths on a national scale.
    While the first report highlighted sharp declines in 
suicide and homicide rates, it also provided important insights 
into the characteristics of persons most at risk of death, as 
well as knowledge of variations in death rates among systems 
and facilities.
    The second report concerned medical causes of death in 
State prisons, giving Congress and the public the first 
detailed look into the physical health and characteristics of 
inmates whose death in custody was medically-related.
    Though BJS has had tremendous success thus far in 
implementing the data collection provisions of DCRA, we face 
difficulties in obtaining information on deaths that occur in 
the process of arrest or in transit after arrest. To fully 
measure such deaths, it is necessary to gain data from 
approximately 18,000 law enforcement agencies.
    While the sheer number of local law enforcement agencies is 
challenging, BJS has nevertheless instituted a collection plan 
that employs the help of various State respondents to obtain 
this information.
    Given the level of effort required to establish and 
maintain these partnerships and the need to work within ever 
present fiscal constraints, BJS has identified a way to 
economize. We have examined the payoff from quarterly versus 
annual reporting and have concluded that annual reporting would 
produce both more complete data and a more efficient 
collection.
    Most jails and law enforcement agencies report no deaths in 
custody during a given year, so quarterly reports produce no 
new data. When deaths do occur, it is unlikely that their full 
investigation will conclude in any given quarter, thus 
quarterly reports in these instances simply revisits the same 
deaths with no conclusion.
    BJS is committed to providing the best possible data to 
Congress and the public when reporting on deaths in custody. As 
evidence of this commitment, we have continued our DCRA 
statistical collections beyond the expiration date of the 
``Death in Custody Reporting Act of 2000.''
    Last week, BJS launched the ``Deaths in Custody'' section 
on our Web site. This section provides a series of detailed 
tables and downloadable spreadsheets for data users, including 
several years of data from the State prison, local jail and 
State juvenile correction facility collections.
    In the fall of 2007, BJS plans to issue its first report on 
arrest-related deaths. Drawing on roughly 2000 records of 
deaths submitted by over 40 States during a 3-year period, this 
study will provide a detailed analysis of circumstances 
surrounding these deaths, including the use of weapons or force 
against arresting officers, attempts to flee or resist arrest, 
and the influence of alcohol or drugs at the time of arrest.
    The use of various weapons and restraint devices by law 
enforcement officers will also be studied.
    In the future, BJS also plans to release a report analyzing 
the medical causes related to deaths in local jails, where over 
half of all inmate deaths are caused by medical problems.
    BJS also looks forward to updating our published report on 
suicide and homicide trends in correctional facilities to look 
for changing patterns in these violent deaths.
    This concludes my statement, Mr. Chairman. Thank you for 
the opportunity to speak with you today, and I would be pleased 
to answer any questions you may have.
    [The prepared statement of Mr. Sedgwick follows:]
                Prepared Statement of Jeffrey Sedgewick


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott of Virginia. Thank you.
    Before Mr. Sullivan, let me recognize the gentlelady from 
California, Ms. Waters, and the gentleman from Ohio, Mr. 
Chabot, who are with us today, the gentleman from North 
Carolina, Mr. Coble, and the gentleman from Massachusetts, Mr. 
Delahunt, who have been here.
    Mr. Sullivan?

   TESTIMONY OF CHARLES SULLIVAN, EXECUTIVE DIRECTOR AND CO-
 FOUNDER, INTERNATIONAL CITIZENS UNITED FOR REHABILITATION OF 
                    ERRANTS, WASHINGTON, DC

    Mr. Sullivan. Thank you, Mr. Chairman.
    The reporting of deaths in custody is the only true 
objective statistic that points at the conditions of 
incarceration. Statistics such as disciplinary infractions or 
even accreditation presume some subjectivity.
    However, each of the almost estimated 5,000 deaths reported 
this year to the Bureau of Justice Statistics is an objective 
indicator of how a particular prison or jail is doing in regard 
to security and medical care.
    BJS will also be given the name, gender, race and age of 
the deceased, as well as the date, time and location of death. 
Finally, there will be a brief description of the circumstances 
surrounding the death.
    Through these reports, BJS has been able to analyze the 
personal characteristics, current offense and environmental 
factors surrounding these deaths. General highlights have shown 
that suicides in jails have substantially declined since the 
early 1980's, while homicides in State prisons have dropped an 
astounding 93 percent.
    Besides overall statistics, BJS has also been able to 
publish the number of deaths in each State, as well as in the 
50 largest jail jurisdictions throughout the country.
    Since this data about deaths is already collected by BJS, I 
would suggest that BJS place all these reports, including the 
names of the deceased, on its Web site. Relatively speaking, 
this is not a large number of deaths. It would include about 
3,000 deaths in State prisons, 1,000 in jails, 500 in law 
enforcement custody, and about 25 in juvenile correctional 
facilities.
    I would suggest that these reports be included with the 
State from which they came. Also, the deaths should be listed 
with the facility and the State where the death occurred. Where 
no deaths occurred, the facility would not be listed.
    When a year is completed, BJS would issue a news release. I 
suggest this, because in preparation for my testimony, I talked 
to wardens and national prison and jail experts. No one really 
was that familiar with these excellent statistics that BJS has 
collected.
    Having details of the deaths on its Web site would 
communicate the extreme importance of this objective data to 
the public, especially to corrections professionals. In the 
same way, the goal of the reporting of deaths in custody is to 
have all deaths reported.
    Presently, deaths in Federal custody are not reported. My 
second recommendation is to include deaths in the Federal 
Bureau of Prisons, immigration detention centers, and other 
Federal jurisdictions.
    Including on the BJS Web site all reported deaths, details, 
all reported details of all deaths in custody throughout the 
United States, it seems to me, would be the next step toward 
reducing deaths in custody. By highlighting the details of each 
death, the corrections and law enforcement professions could 
examine why this death occurred and how deaths like this can be 
prevented in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sullivan follows:]
                 Prepared Statement of Charles Sullivan
    The reporting of deaths in custody is the only true objective 
statistic that points to the conditions of incarceration. Statistics 
such as disciplinary infractions or even accreditation presume some 
subjectivity. However, each of the almost 5,000 deaths reported this 
year to the Bureau of Justice Statistics is an objective indicator of 
how a particular prison or jail is doing in regard to security and 
medical care.
    BJS will also be given the name, gender, race, and age of the 
deceased as well as the date, time and location of the death. Finally, 
there will be a brief description of the circumstances surrounding the 
death.
    Through these reports, BJS has been able ``to analyze the personal 
characteristics, current offense and environmental factors'' 
surrounding these deaths. General highlights have shown that suicides 
in jails have substantially declined since the early eighties while 
homicides in state prisons have dropped an astounding 93%.
    Besides overall statistics, BJS has also been able to publish the 
number of deaths in each state as well as in the 50 largest jail 
jurisdictions.
    Since this data about deaths is already collected by BJS, I would 
suggest that BJS place all all these Reports, including the names of 
the deceased, on its web site.
    Relatively speaking, this is not a large number of deaths. It would 
include about 3,000 deaths in state prisons, 1,000 in jails, 500 in law 
enforcement custody and 25 in juvenile correctional facilities. I would 
suggest that these reports be included with the state from which they 
came. Also, the deaths would be listed with the facility in the state 
where the death occurred. When no deaths occurred, the facility would 
not be listed.
    When a year is completed, BJS would issue a news release. I suggest 
this because in preparation for my testimony, I talked to wardens, and 
national prison and jail experts. No one really was that familiar with 
the excellent statistics BJS has collected. Having details of the 
deaths on its web site would communicate the extreme importance of this 
objective data to the public especially to corrections professionals.
    In the same way, the goal of the reporting of deaths in custody is 
to have ALL deaths reported. Presently, deaths in federal custody are 
not reported. My second recommendation is to include deaths in the 
Federal Bureau of Prisons, immigration detention centers and other 
federal jurisdictions.
    Including on the BJS web site ALL reported details of ALL deaths in 
custody throughout the United States would be the next step toward 
reducing deaths in custody. By highlighting the details of each death, 
the corrections and law enforcement professions can examine why this 
death occurred and how deaths like this can be prevented in the future.

    Mr. Scott of Virginia. Thank you, Mr. Sullivan.
    Ms. Gainsborough?

 TESTIMONY OF JENNI GAINSBOROUGH, WASHINGTON OFFICE DIRECTOR, 
           PENAL REFORM INTERNATIONAL, WASHINGTON, DC

    Ms. Gainsborough. Thank you, Mr. Chairman and Members of 
the Committee. I appreciate the opportunity to speak to you 
today.
    And I also wanted to say how much I appreciate the Chairman 
for introducing this bill again and for all his work over the 
years and continuing support for upholding the human and civil 
rights of incarcerated people. They are much appreciated by all 
of us working to reform the prison system.
    The United States has more people behind bars than any 
other country in the world, not only in absolute numbers, but 
as a percentage of its population. We lock up people at a rate 
10 to 15 times higher than any other industrialized democracy. 
Almost one-quarter of the world's total number of prisoners is 
held in the U.S.
    Yet, despite the size of our incarcerated population, we 
lack any mandated national standards or any systemic oversight 
to ensure the conditions of confinement adhere to 
constitutional or human rights standards.
    Because it is so difficult to find out what happens in 
prisons and to ensure that the necessary steps are taken to 
produce systemic reforms, those instruments that we do have, 
such as the ``Death in Custody Reporting Act,'' are of great 
importance.
    The Chairman has already talked about the problems that led 
to the passing of DCRA originally in 2000 and the encouraging 
results that we have seen at least in some areas of deaths 
since those times, and it is very clear that we need this 
reporting to continue.
    The measurement of deaths in custody is crude, but it is an 
important measure for evaluating the culture of an institution. 
It reflects on health care, suicide prevention, prisoner-on-
prisoner violence, and staff-on-prisoner violence. It will 
become a more effective tool in preventing deaths if the data 
it produces are used to make improvements in correctional 
health care, classification systems, suicide prevention, staff 
assignment and training, even facility design, all areas that 
could make a significant difference in preventing deaths.
    Learning how many people die of different illnesses is 
important, but it is only a beginning or, rather, it is an end, 
a snapshot of a final outcome. We need the information about 
deaths in order to analyze problems, improve faulty systems and 
work to reduce the numbers as much as possible.
    Unfortunately, the tendency is to hide the problems that 
exist precisely because government does not want to acknowledge 
or deal with them. It was extremely discouraging to learn from 
the recent testimony of the last surgeon general that the Bush 
administration prevented the release of the report on prison 
health care produced by his office because of fears that it 
would lead to calls for reform.
    The publication of a major report to Congress, the health 
status of soon to be released inmates, was also delayed for a 
long time and finally released with as little attention drawn 
to it as possible.
    In 1996, Congress acted to limit the role of the Federal 
courts in protecting prisoners from abuse by passing the 
``Prison Litigation Reform Act.'' These actions are all 
symptomatic of a lack of concern at all levels of government 
for the well-being of people who have no alternative but to 
rely on the State to meet their health-care needs.
    They also suggest a lack of concern for the well-being of 
people who work in prisons, whose own health can be threatened.
    Asking for greater oversight and transparency of what 
happens in prisons and jails is not to undermine the 
professionalism of prison administrators or to call into 
question the good intentions of the majority of them. No one 
doubts that providing good health care in prison is 
challenging.
    People going into prisons and jails are likely to have 
greater health-care problems than those in the free world. 
People who become prisoners are generally poor, have not had 
good health care in their lives, and are often abusers of 
alcohol and drugs.
    But the fact that staff face difficult circumstances of the 
people in their care is an argument for greater, not less 
oversight. Adequate treatment of the physical and mental 
illness of people held in the custody of the State is not just 
a human right, but has important implications for the health 
and safety of the communities to which they will, in time, turn 
and to the health and safety of those who work in prisons and 
come in daily contact with them.
    The increased privatization of health care in prisons has 
certainly damaged the standard of care in many institutions. 
Reports and lawsuits have made it clear that a system in which 
companies submit low bids in order to win contracts and then 
cut back on services and personnel in order to maximize profits 
can lead directly to suffering and death.
    There are many reports and information about some of these 
problems. I touch some in my testimony and will be very happy 
to provide more.
    Private prison companies, both those providing health care 
and those owning prisons and managing the full range of 
custodial services, present particular problems to the lack of 
transparency and oversight. And I am very concerned about the 
wording of the bill that is out now, which does not explicitly 
include facilities operated by for-profit companies, and I 
would like to see language really make that clear.
    It is particularly problematic because those facilities 
include many of the immigrant detention centers, where problems 
have been reported. The Department of Homeland Security's 
inspector general issued a report earlier this year and found 
problems with medical care in a number of facilities.
    Immigration and Customs Enforcement, ICE, told the New York 
Times last month that 62 inmates died in its custody from 2004 
to 2006. The ACLU has documented many instances of medical 
neglect leading to death.
    The number of people in immigration detention has doubled 
in a decade to 27,000 or more on any given day and negligent 
medical care is among the most frequent complaints by detainees 
nationwide.
    As currently written, DCRA does not require these deaths to 
be reported and this clearly, too, needs to be changed.
    Reporting alone will not solve the problems of health care 
in places of detention nor the other conditions that can lead 
to the death of prisoners, whether it is through suicide or 
violence inflicted by others. But understanding why prisoners 
die is an essential step in improving the system. It is one 
tool that can help to open up a closed world and provide some 
transparency.
    We see DCRA as one opportunity among several to improve 
current standards of care for people under the control of the 
State. The regulations to be developed under the ``Prison Rape 
Elimination Act'' will provide another tool and we hope there 
will be some strengthening of oversight and conditions in 
juvenile facilities included the reauthorization of the 
``Juvenile Justice and Delinquency Prevention Act.''
    We also remain hopeful that one day the United States will 
ratify the optional protocol to the convention against torture, 
which would require us to develop a system of internal 
oversight and inspection.
    I realize that I am over my time and I will stop, but I 
will be very happy to provide any further information to the 
panel. Thank you.
    [The prepared statement of Ms. Gainsborough follows:]
                Prepared Statement of Jenni Gainsborough
    My name is Jenni Gainsborough. I am the Director of the Washington 
Office of Penal Reform International (PRI). PRI is the world's largest 
international criminal justice reform organization working to improve 
access to justice, reduce the overuse of incarceration and ensure the 
humane treatment of prisoners in accordance with human rights laws, 
standards and norms. The Washington office's particular mandate is to 
broaden the knowledge and understanding of human rights mechanisms and 
standards in the U.S. among criminal justice reformers, policy makers 
and administrators and to encourage their integration into policy and 
practice here.
    Thank you for the invitation to address the Subcommittee on the 
issue of reporting deaths in custody. I would also like to thank 
Representative Scott for introducing HR 2908, the Death in Custody 
Reporting Act. His leadership on this issue as well as his continuing 
support for upholding the human and civil rights of incarcerated people 
are greatly appreciated by all of us working to reform the prison 
system.
    The United States now has more people behind bars than any other 
country in the world, not only in absolute numbers but as a percentage 
of its population. Our incarceration rate of more than 737 per 100,000 
is ten to fifteen times the rate of other industrialized democracies. 
We lock up more people, including children, for longer periods of time 
and the numbers and percentages increase every year. Almost one quarter 
of the world's total number of prisoners is held in the U.S. Yet 
despite the size of our incarcerated population, we lack any mandated 
national standards or any system for systemic oversight to ensure that 
conditions of confinement adhere to constitutional or human rights 
standards.
    Because it is so difficult to find out what happens in prisons and 
to ensure that the necessary steps are taken to produce systemic 
reforms, those instruments that we do have, such as the Death in 
Custody Reporting Act (DICRA) are of great importance. DICRA was passed 
originally in 2000 as a result of concerns about the questionable 
circumstances in thousands of deaths in police and prison custody. 
Before DICRA, data collection on prison deaths was incomplete in part 
because states lacked the incentive to participate but also because 
states were inconsistent in their reporting methods and the Bureau of 
Justice Statistics only required prisons to report aggregate death 
statistics rather than the details of individual cases.
    The measurement of deaths in custody is a crude but important 
measure for evaluating the culture of an institution--it reflects on 
healthcare, suicide prevention, prisoner-on-prisoner violence, and 
staff on prisoner violence. It will become a more effective tool in 
preventing deaths if the data it produces are used to make improvements 
in correctional healthcare, classification, suicide prevention, staff 
assignment and training, facility design, and other areas that can make 
a significant difference in preventing deaths.
    Learning how many people die of different illnesses is important 
but it is only a beginning--or rather it is an end, a snapshot of a 
final outcome. We need the information about deaths in order to analyze 
problems, improve faulty systems and to work to reduce the numbers as 
much as possible. Unfortunately, the tendency is to hide the problems 
that exist precisely because government does not want to acknowledge or 
deal with them.
    It was extremely discouraging to learn from the recent testimony of 
the last Surgeon General that the Bush administration prevented the 
release of the report on prison health care produced by his office 
because of fears that it would lead to calls for reform. The 
publication of a major report to Congress, The Health Status of Soon-
to-be-Released Inmates was also delayed for a long time and was finally 
released in May 2002 so as to draw as little attention as possible. In 
1996, despite the fact that changing case law was already making it 
more difficult to obtain remedies in prisoner abuse cases, Congress 
acted to limit the role of the federal courts in protecting prisoners 
from abuses by passing the Prison Litigation Reform Act (PLRA). The 
limitations on the role of the courts imposed by the PLRA, further 
reduced oversight of what happens in the closed world of prisons.
    These actions are symptomatic of a lack of concern at all levels of 
government for the well being of people who have no alternative but to 
rely on the state to meet their healthcare needs. They also suggest a 
lack of concern for the well being of people who work in prisons whose 
own health can be threatened.
    Asking for greater oversight and transparency of what happens in 
prisons and jails, is not to undermine the professionalism of prison 
administrators or to call into question the good intentions of the 
majority of them. No one doubts that providing good healthcare in 
prison is challenging. People going into prisons and jails are likely 
to have greater health problems than those in the free world. People 
who become prisoners are generally poor and have not had good 
healthcare in their lives. They are often abusers of alcohol and drugs. 
A high percentage suffer from mental illnesses, often severe and often 
untreated. But the fact that staff face difficult circumstances with 
the people in their care is an argument for greater, not lesser, 
oversight. Adequate treatment of the physical and mental illnesses of 
people held in the custody of the state is not just a human right but 
it has important implications for the health and safety of the 
communities to which they will in time return and to the health and 
safety of those who work in prisons and come into daily contact with 
them. Communicable diseases like tuberculosis, Hepatitis C and HIV 
reach the public through people released from prison and those who 
visit or work inside places of detention.
    The increased privatization of healthcare in prisons has certainly 
damaged the standard of care in many institutions. Reports and laws 
suits have made it clear that a system in which companies submit low 
bids in order to win contracts and then cut back on services and 
personnel in order to maximize profits can lead directly to suffering 
and death. Prison Health Services (PHS), one of the largest private 
prison healthcare companies, has lost contracts in a number of 
jurisdictions, for example in Hillsborough County, FL, where a pregnant 
woman complained of labor pains for 12 hours before giving birth over a 
toilet to a baby who died on the way to the hospital; Dutchess County, 
N.Y., where a 35-year-old woman died after PHS doctors ignored her 
claims of chest pain for 10 days; Schenectady County, N.Y., where a 
Parkinson's patient was deprived of most of his medication and left to 
die in a bed soaked in his own urine.
    Private prison companies, both those providing healthcare and those 
owning prisons and managing the full range of custody services, present 
particular problems of lack of transparency and oversight. They often 
try to hide their problems by making claims of proprietary business 
information and, when lawsuits are brought, often settle out of court 
and impose requirements of confidentiality about the details of such 
settlements. I am concerned about the wording of HR 2908 which refers 
to the need to report ``information regarding the death of any person 
who is in the process of arrest, is en route to be incarcerated, or is 
incarcerated at a municipal or county jail, state prison, or other 
local or State correctional facility (including any juvenile 
facility).'' Unfortunately, this language does not explicitly include 
facilities operated by for-profit companies. Those facilities include 
many of the immigrant detention centers where problems have been 
reported.
    The Department of Homeland Security's inspector general issued a 
report earlier this year and found problems with medical care in a 
number of facilities. Immigration and Customs Enforcement (ICE) told 
the New York Times last month that 62 inmates died in its custody from 
2004 to 2006. The American Civil Liberties Union (ACLU) has documented 
many instances of medical neglect leading to death. Among those who 
died while in ICE custody were a man from Sierra Leone who collapsed at 
a Virginia jail after saying he did not get medicine for a kidney 
ailment, a woman from Barbados who died in another Virginia jail after 
telling her sister that she received no medicine for a uterine fibroid 
that caused hemorrhaging, and a South Korean woman who died after 
cellmates appealed to authorities for help over a period of weeks. The 
number of people in immigration detention has doubled in a decade to 
27,500 on any given day. Meanwhile, negligent medical care is among the 
most frequent complaints by detainees nationwide. As currently written, 
DICRA does not require these deaths to be reported. This clearly needs 
to be changed.
    Reporting alone will not solve the problems of healthcare in places 
of detention, nor the other conditions that can lead to the death of 
prisoners whether through suicide or violence inflicted by others, but 
understanding why prisoners die is an essential step in improving the 
system. It is one tool that can help to open up a closed world and 
provide some transparency. DICRA requires the Attorney General to 
develop guidelines for the reporting of data and we hope that the 
Attorney General will use that opportunity to ensure that the 
information is collected and disseminated in a way that maximizes its 
usefulness. It would be extremely helpful if the process began with 
discussions between all the stake holders to devise the best possible 
system to make sure that happens.
    We see DICRA as one opportunity among several to improve current 
standards of care for people under the control of the state. The 
regulations to be developed under the Prison Rape Elimination Act will 
provide another tool for greater transparency and we hope that there 
will be some strengthening of oversight of conditions in juvenile 
facilities included in the reauthorization of the Juvenile Justice and 
Delinquency Prevention Act. We also remain hopeful that one day the 
United States will ratify the Optional Protocol to the Convention 
Against Torture (OPCAT). The OPCAT would require us to develop a system 
of internal oversight and inspection appropriate to our federal system 
while ensuring that no one deprived of liberty is also deprived of a 
mechanism to ensure basic standards of humane treatment regardless of 
where he or she is held.
    It is simply inconsistent with the values and principles of the 
United States to continue to lock up so many people without providing 
the minimum levels of oversight that are considered essential in other 
western democracies. We very much appreciate the opportunity to draw 
attention to the need for the Deaths in Custody Reporting Act. 
Obviously, this testimony can only provide a very brief overview of 
some of the concerns that we would like to see addressed. There are 
problems at all stages of the system--people dying after the use of 
tasers and electronic stun guns by the police, children dying in boot 
camps and detention facilities because of abusive treatment, and 
problems with inadequate healthcare in prisons and jails. I would be 
more than happy to provide further information on any of the points 
raised here.
    Once again, I would like to thank the Subcommittee and 
Representative Scott for raising these issues and for working to ensure 
the continuation of the reporting requirements of DICRA.

    Mr. Scott of Virginia. Thank you very much, Ms. 
Gainsborough.
    Ms. Scott?

              TESTIMONY OF MARY SCOTT, MOTHER OF 
               JONATHAN MAGBIE, MITCHELLVILLE, MD

    Ms. Scott. Good afternoon. My name is Mary Scott. And I 
first want to thank you for this opportunity to give this 
testimony on behalf of my son, Jonathan.
    Mr. Coble. Mr. Chairman, could you ask Ms. Scott to maybe 
pull the mike a little closer?
    Ms. Scott. Again, my name is Mary Scott, and I first want 
to thank you for this opportunity to give this testimony on 
behalf of my son, Jonathan Magbie, and also others who have 
died while in the prison or jail.
    I offer this statement as support of the reauthorization of 
the ``Death in Custody Reporting Act.''
    My son Jonathan's death represents the height of the 
corrections system's and perhaps the criminal justice system's 
brutality and inhumanity. You see, at the time of his death, 
Jonathan was a 27-year-old quadriplegic, literally without the 
ability to control any of his body functions, even breathing.
    On September 20, 2004, Jonathan was given a 10-day sentence 
by a D.C. superior court judge for a first-time marijuana 
possession. He didn't deny that he smoked. In fact, he told the 
judge that it made him feel better. Little did he know that 
this statement would cost him his life.
    Let me briefly explain.
    Jonathan was a respiratory-dependent quadriplegic. As a 
result of being hit by a car at the age of 4, he was paralyzed 
from the neck down and needed a ventilator to breath.
    His 10-day sentence to the District of Columbia jail became 
a grueling and inexplicable ordeal. While in the prison, he was 
deprived of basic medical services, isolated in a closed-door 
cell, from where he had absolutely no capability of 
communicating, left dehydrated and medically misdiagnosed.
    The D.C. jail and its medical staff, with the court's 
sanction, accepted Jonathan into custody and then abandoned 
him. Five days later, he was dead.
    How was his death reported to the Department of Justice? To 
what extent were the actual facts and circumstances and 
especially the causes of his death documented and examined? How 
was it that a man who was able to survive a debilitating 
accident at age 4, experienced life-threatening bouts with 
pneumonia, a life-threatening bone infection and numerous 
surgeries, was unable to survive 5 days in jail?
    The Department of Justice should know that this 
quadriplegic was not properly suctioned, that if his lungs 
weren't properly cleared, that he was not properly 
catheterized, that he was not properly fed nor given necessary 
fluids, that he lost more than 20 pounds in 5 days, that he was 
locked in a closed room and deprived of proper medical 
attention.
    What happened to my son epitomizes the potential cruel and 
inhuman treatment that an isolated and vulnerable inmate can 
experience.
    The point here is that Jonathan's death and the particular 
circumstances surrounding his death should be documented in the 
interest of public accountability. This information should be 
examined, in my opinion, to ensure that others learn from the 
mistakes of this experience and not repeat them hopefully ever 
again.
    As a mother of a son who died a traumatic death while in 
custody, I strongly urge this Committee to support 
reauthorization of the ``Death in Custody Reporting Act.'' Our 
government and our society need a law which requires uniform 
reporting of prison deaths to the Department of Justice.
    Such a law should also state specific consequences for 
noncompliance. No justice system, especially ours, should 
transcend public accountability or the letter of the law.
    Therefore, the government and the public should know when 
and how people die in custody. Judicial determinations that 
someone should be incarcerated should not mean that those 
individuals' humanity or the humanity of that very system of 
incarceration is nullified.
    I am not necessarily pointing a finger and casting 
universal blame for jail and prison-related deaths. What I am 
saying is that these deaths, for whatever reason, command 
public attention and especially the attention of government 
leaders and decision-makers who seek to make that system and 
more responsible.
    I am not a lawyer, but I do know that the common thread of 
government interest related to these deaths is the question 
whether our corrections system is meeting Federal standards and 
constitutional protections.
    In Jonathan's case, it is significant that the D.C. 
government conducted an investigation and held oversight 
hearings and sought explanations for Jonathan's death. There is 
no doubt that knowledge and information are powerful tools in 
monitoring our corrections system.
    The improvement of Federal policies and procedures can only 
come from vigilant Justice Department and Congressional 
scrutiny of the knowledge and information such as that required 
in this law.
    I sincerely thank you for the opportunity to appear before 
you today, and I trust that your efforts in reauthorizing the 
law will be successful.
    Thank you.
    [The prepared statement of Ms. Scott follows:]
                    Prepared Statement of Mary Scott
    Good afternoon:
    My name is Mary Scott, and I first want to thank you for this 
opportunity to give this testimony, on behalf of my son, Jonathan 
Magbie, and also others who have died while in the prison or jail. I 
offer this statement in support of the reauthorization of the Death in 
Custody Reporting Act.
    My son, Jonathan's death represents the height of the correction 
system's, and perhaps the criminal justice system's, brutality and 
inhumanity. You see, at the time of his death Jonathan was a 27 year 
old quadraplegic, literally without the ability to control any of his 
body functions, even breathing.
    On September 20, 2004, Jonathan was given a ten (10) day sentence 
by a D.C. Superior Court judge for a first time offense of marijuana 
possession. He didn't deny that he smoked. In fact, he told the judge 
that it made him feel better. Little did he know that this statement 
would cost him his life.
    Let me briefly explain. Jonathan was a respiratory dependent 
quadriplegic. As a result of being hit by a car at age four, he was 
paralyzed from the neck down and needed a ventilator to breathe. His 
ten day sentence to the District of Columbia jail became a grueling and 
inexplicable ordeal. While in the jail, he was deprived of basic 
medical services, isolated in a closed door cell (from where he had 
absolutely no capability of communicating), left dehydrated and 
medically misdiagnosed. The D.C. jail and its medical staff, with the 
court's sanction, accepted Jonathan into custody, and then abandoned 
him. Five days later, he was dead.
    How was his death reported to the Department of Justice? To what 
extent were the actual facts and circumstances, and especially the 
causes of his death, documented and examined? How was it that a man who 
was able to survive a debilitating accident at age four, experience 
life threatening bouts with pneumonia, a life threatening bone 
infection and numerous surgeries, was unable to survive five (5) days 
in jail? The Department of Justice should know that this quadriplegic 
was not properly suctioned, that his lungs were not properly cleared, 
that he was not properly catheterized, that he was not properly fed nor 
given necessary fluids, that he loss more than twenty pounds in five 
days, that he was locked in a closed room, and deprived of proper 
medical attention.
    What happened to my son epitomizes the potential cruel and inhuman 
treatment that an isolated and vulnerable inmate can experience.
    The point here is that Jonathan's death, and the particular 
circumstances surrounding his death, should be documented in the 
interest of public accountability. This information should be examined, 
in my opinion, to ensure that others learn from the mistakes of this 
experience and not repeat them, hopefully ever again.
    As a mother of a son who died a traumatic death while in custody, I 
strongly urge this Committee to support reauthorization of the Death in 
Custody Reporting Act. Our government and our society need a law which 
requires uniform reporting of prison deaths to the Department of 
Justice. Such a law should also state specific consequences for 
noncompliance.
    No justice system, especially ours, should transcend public 
accountability or the letter of the law. Therefore, the government and 
the public should know when and how people die in its custody. Judicial 
determinations that someone should be incarcerated should not mean that 
that those individuals' humanity or the humanity of that very system of 
incarceration is nullified. I am not necessarily pointing a finger and 
casting universal blame for jail and prison related deaths. What I am 
saying is that these deaths, for whatever reason, command public 
attention and especially the attention of government leaders and 
decision makers who seek to make that system safer and more 
responsible.
    I am not a lawyer, but I do know that the common thread of 
government interest related to these deaths is the question whether our 
corrections system is meeting federal standards and constitutional 
protections.
    In Jonathan's case, it is significant that the D.C. government 
conducted an investigation and held oversight hearings, and sought 
explanations for Jonathan's death. There is no doubt that knowledge and 
information are powerful tools in monitoring our corrections system. 
The improvement of federal policies and procedures can only come from 
vigilant Justice Department and congressional scrutiny of the knowledge 
and information such as that required in this law.
    I sincerely thank you for the opportunity to appear before you 
today and I trust that your efforts in reauthorizing the law will be 
successful. THANK YOU.

    Mr. Scott of Virginia. Thank you, Ms. Scott.
    Ms. Scott, are you represented by a lawyer? Could you 
identify him, in case there are questions, technical questions 
you may be asked?
    Ms. Scott. Mr. Donald Temple and Mr. Cockner.
    Mr. Scott of Virginia. In case there are questions, Mr. 
Temple is here.
    Without objection, the Subcommittee will be recessed 
shortly, subject to the call of the Chair, so the Subcommittee 
can proceed with a previously scheduled markup.
    [Recess.]
    Mr. Scott of Virginia. The Chair now recesses the 
Subcommittee markup and resumes the Committee hearing on the 
bill.
    And I recognize myself for 5 minutes for questions.
    Mr. Sedgwick, you mentioned the problem of defining the 
process of arrest. Could you recommend how we could clarify 
that so there would not be any question?
    Mr. Sedgwick. The problem is not in defining the process of 
arrest. The difficulty is in collecting data from that 
particular stage of custody or that particular form of custody.
    The challenge that we face with the law enforcement 
community, quite frankly, is that there are 18,000 law 
enforcement units in the United States. Only two States have 
mandatory or required reporting by local law enforcement to a 
State agency of deaths in custody.
    The consequences in terms of trying to collect accurate 
data on deaths that occur in the process of arrest or transport 
subsequent to arrest is, essentially, it requires us to go out 
and establish some type of data collection mechanism with 
18,000 different agencies, which has proven to be probably the 
most time-consuming task that we have been involved in with 
DCRA and it is part of the reason why we will be getting around 
to doing our first report on deaths in the process of law 
enforcement or arrest-related deaths this fall. It has simply 
taken a very long time.
    How we solve that problem is a question on which the 
Department has not taken a position. I can say from the point 
of view of BJS, as a data collection agency, it is an awful lot 
easier for us to get information out of those two States that 
have mandatory State laws requiring deaths in local law 
enforcement agencies be reported to the State government.
    It is much easier for us to collect data in those States 
than it is in the other 48.
    Mr. Scott of Virginia. Thank you.
    The question has been raised about whether or not the 
reporting is required for, I guess, contracted incarceration 
under the for-profit facilities. Is there any question about 
whether or not they are included under the present language?
    Mr. Sedgwick. Right now, we collect data for State prisons 
from State departments of corrections. So if a State department 
of corrections has operating under its jurisdiction a contract-
out service, yes, we would get data from those institutions.
    Mr. Scott of Virginia. There appeared to be some question 
about that. So you wouldn't have a problem with us making that 
clear that they are----
    Mr. Sedgwick. Not at all.
    Mr. Scott of Virginia [continuing]. To be included.
    Mr. Sedgwick. Not at all.
    Mr. Scott of Virginia. Do you include a difference in 
juvenile facilities and juveniles in adult facilities?
    Mr. Sedgwick. We do not, under the juvenile collection, 
include juveniles that are held in adult facilities, because 
they are reported by the adult facility. So to avoid double 
counting, any juvenile that is held in an adult facility in the 
United States is reported under the adult prison collection, 
not under the separate juvenile collection.
    Mr. Scott of Virginia. But you would have the juveniles' 
age in that reporting.
    Mr. Sedgwick. We would.
    Mr. Scott of Virginia. Do you know what the Department of 
Justice does with the numbers or, particularly, what they do 
when they notice a high number of deaths coming from a 
particular facility?
    Mr. Sedgwick. I do not, not as the Director of a 
statistical agency. I am not privy to those kinds of 
operational decisions.
    Mr. Scott of Virginia. Thank you.
    Mr. Sullivan, in publicizing the information, are there any 
concerns that you might see in terms of violation of persons' 
privacy?
    Mr. Sullivan. Mr. Chairman, I talked to an attorney about 
this and it doesn't seem to be any problem with actually 
including the name of the individual.
    There was a Supreme Court decision a few years ago 
concerning the suicide events, Foster, where someone was 
investigating that and wanted pictures in regard to the 
suicide, et cetera, and the Supreme Court said, ``No, you 
cannot receive these pictures.''
    But there was no problem with the name and this particular 
attorney, who I can certainly provide his name to the 
Subcommittee, seems to be very aware that there would not be 
any privacy problems in including the deceased.
    Mr. Scott of Virginia. Thank you.
    And, Mr. Sedgwick, you indicated that half of the deaths 
are caused by medical problems. Exactly what do you mean by 
that?
    Mr. Sedgwick. No, actually, I think the correct figure is 
about 89 percent of the deaths that occur in prison are health-
related. Among health-related, half of those deaths are caused 
by cancer or heart disease, I believe.
    Mr. Scott of Virginia. So medical problems, you mean 
disease. You are not talking about malpractice.
    Mr. Sedgwick. Correct.
    Mr. Scott of Virginia. I think I will shock my colleague by 
yielding back at this time to make sure I don't go over.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all the witnesses for being here.
    Ms. Scott, we want to thank you for taking time and joining 
us. I was just wondering if you could describe for us the 
extent of the medical care that your son required as a result 
of his condition.
    Ms. Scott. Jonathan required 24-hour medical or nursing 
care. He couldn't do anything on his own. He couldn't feed 
himself or he couldn't breath on his own. So that alone 
required that he have someone with him at all times.
    Mr. Forbes. And was that care provided at home by you or a 
nurse before he was incarcerated?
    Ms. Scott. Well, he had 20 hours a day of nursing care. The 
other 4 hours, the family took responsibility for.
    Mr. Forbes. After his death, what explanations were you 
offered for your son's lack of medical care while he was in 
jail?
    Ms. Scott. The lack of care? They never gave me--I mean, 
they never told me he did not receive the care.
    Mr. Forbes. So you were never informed that he wasn't.
    Were you able to be involved in any of the investigations 
of the oversight hearings that were conducted regarding----
    Ms. Scott. No.
    Mr. Forbes [continuing]. Jonathan's death? So you were 
excluded basically from all of those.
    Has there been any follow-up with you by the D.C. 
government or the Department of Justice regarding Jonathan's 
death?
    Ms. Scott. Follow-up in what way?
    Mr. Forbes. About any explanations about why he wasn't 
given medical care or the situation that led up to his death.
    Ms. Scott. Donald, is that--we are currently in litigation.
    Mr. Forbes. Don't answer anything that you don't feel 
comfortable doing.
    Mr. Temple. My name is Donald Temple. Just briefly, we have 
worked with the District of Columbia government in their 
oversight process. There was an inspector general report. There 
were city council hearings and health department investigation.
    As far as the city government is concerned, we did work 
with them to ascertain the causes of the death and areas in 
which improvements could be made.
    Mr. Forbes. Thank you.
    And, Ms. Scott, we are certainly sorry for your loss. Thank 
you for being here today.
    Ms. Scott. Thank you.
    Mr. Forbes. Mr. Sedgwick, first of all, let me compliment 
you on a great choice in getting your Ph.D. from the University 
of Virginia.
    And then, also, what are the most common types of illnesses 
that are attributed to deaths in custody? And in follow-up, are 
you seeing any changing trends in the type or rate of certain 
illnesses? And they tend to vary region by region across the 
country and by type of custody.
    Mr. Sedgwick. On the latter question, I would prefer to 
give you a written answer to that, because that is pretty 
detailed.
    But we are seeing, I think, as you alluded to, heart 
disease and cancer accounts for half of all of the illness-
related deaths of inmates in prison and, again, I would put 
that in the context that 89 percent of all State prisoner 
deaths are medical problems.
    We are seeing an increase in the types of illnesses that 
one would associate with increasing age, which is, in part, a 
reflection of longer sentences being handed out and, therefore, 
an aging prison population in the United States.
    So causes of death that you would normally associate with 
aging processes, whether that be lung cancer, heart disease and 
so on, are tending to become more prevalent.
    So I think I would stop there.
    Mr. Forbes. And you don't mind submitting, whenever you get 
the opportunity, for the record----
    Mr. Sedgwick. Not at all.
    Mr. Forbes [continuing]. The change by region.
    Mr. Sedgwick. Sure.
    Mr. Forbes. Mr. Sullivan, we have a Department of Justice 
report that indicates that the State prison homicide rate is 
down 93 percent since the 1980's and that suicide rates are 64 
percent lower than in the early 1980's.
    Do you have any explanation as to why that might be the 
case or what would you attribute the dramatic decrease in 
prisoner suicides and homicides to?
    Mr. Sullivan. Certainly, I think litigation, as we just 
discussed, but, also, there has been a move toward 
professionalism. As Mr. Scott said earlier, I think this 
reporting has had its impact on this and I don't think 
corrections is really threatened like they used to be.
    It used to be more them and us and whatever, but I think we 
are all working together to reduce the incidence of death, and 
that is why I think, to get back to my suggestion, that it be 
placed on the Internet so that everybody can see.
    I think, for example, Ms. Scott does not know for sure 
whether her son actually--his report was given. I don't think 
we can verify that, unless it is on the Internet.
    So that is why I think we are at a point that maybe we--by 
having the details, having the studies is so very important, 
but having the details of each death on the Internet.
    We do know that most entities that do report end up filling 
out a form that is on the Internet. It would be very simple to 
just forward that to the BJS Web site and have them list it 
according to their States, so that everybody would know, first 
of all, that it would be verified that it actually happened, 
that it was reported, and, secondly, it would be a continual 
move toward professionalism, where corrections professionals 
and law enforcement professionals could look at this particular 
case, this particular reporting of a death in custody and see 
then is there anything we can learn from this, as we have 
learned so much in regard to Ms. Scott's son.
    Mr. Forbes. Thank you.
    My time is up. I yield back the balance.
    Mr. Scott of Virginia. Thank you.
    The gentlelady from California?
    Ms. Waters. Thank you very much, Mr. Chairman.
    I receive many letters from prisoners, some State, some 
Federal. Many of the complaints have to do with the inability 
of the inmate to negotiate their medical care inside the 
institutions.
    The complaints include those who go in who are taking 
medication that cannot get their medication once they have been 
incarcerated. The complaints include inability to see a doctor 
and the fact that oftentimes their complaints are just plain 
ignored inside the prison.
    I have written letters on behalf of families trying to get 
the authorities to respond to the request of the family and/or 
the inmate, and I am wondering what happens to my letters and 
letters of other family members.
    Are those letters held in a file or recorded in some way so 
that if, in fact, there is litigation, those lawyers would have 
access to that information that there have been requests, there 
had been an attempt to bring to the attention of the 
authorities that there may be some negligence?
    I would like to ask Mr. Sedgwick if he can respond to that.
    Mr. Sedgwick. Such letters are not filed at BJS. I can look 
into that and get back you and let you know whether or not 
there is another unit within the Department of Justice that 
would maintain access or maintain those letters and provide 
them on request to other parties.
    But the data that we collect would not include those 
letters, no. We send out a standard reporting form that we ask 
each jurisdiction to fill out, including details on particular 
circumstances of death. But they would not return with that 
form letters such as you are describing.
    Ms. Waters. Well, I bring this question up because I 
suspect that it is very difficult to access those letters in 
any of the institutions. I suspect that it is true. I don't 
know it to be true.
    However, Mr. Chairman, I bring it up for discussion, 
because I think it should be considered in the legislation that 
letters relative to the requests that are being made for 
medical attention, et cetera, be filed in a way that families 
and lawyers would have access to that information. I think that 
would be very important.
    Let me just say to Ms. Scott, I am very, very sorry to hear 
about what happened to your son. I know that you must feel 
extremely helpless in a case where your son, who had the 
disabilities that you described and cannot help himself, and, 
obviously, something went wrong, very, very wrong there.
    And so I am hopeful that in addition to your ability to 
seek some kind of justice for his death, that what we do here 
in Congress will help to be of assistance to inmates and 
families for the future. And thank you for coming to testify 
today.
    I yield back the balance of my time.
    Mr. Scott of Virginia. Thank you.
    The gentleman from North Carolina?
    Mr. Coble. Thank you, Mr. Chairman.
    Ms. Scott, when I asked you to pull the mike closer to you 
earlier, I wasn't being critical of your delivery. It was my 
hearing impairment which was the problem. [Laughter.]
    Ms. Scott, were you involved in any way with the D.C. 
government investigation or the oversight hearings that were 
conducted regarding your son's death?
    Ms. Scott. No, I was not.
    Mr. Coble. Mr. Sedgwick, the two States you mentioned, what 
are those two States?
    Mr. Sedgwick. California and Texas.
    Mr. Coble. And what are the requirements?
    Mr. Sedgwick. California and Texas have State laws 
requiring local law enforcement agencies to report all deaths 
in the process of arrest to be reported to a State agency.
    Mr. Coble. You may have already touched on this. What are 
the most common types of illnesses that are attributed to 
deaths in custody?
    Mr. Sedgwick. Medical causes of deaths are overwhelmingly 
the greatest cause of death for persons in custody in the 
United States and heart disease and----
    Mr. Coble. What was number one?
    Mr. Sedgwick. Heart disease is 27 percent, and cancer is 23 
percent. So 50 percent of 89 percent pass away from those two 
causes.
    Mr. Coble. Mr. Sullivan, I am told that there has been at 
least a reporting of the dramatic decrease in prisoner suicides 
and homicides. To what do you attribute that?
    Mr. Sullivan. Congressman, I really think there has been a 
move toward professionalism that we are seeing and reducing 
these deaths. I think it is something that corrections has, as 
a profession, has--and because it has come into its own, I 
think that, in my experience in dealing with correctional 
professionals, I see much more working together than we have 
ever worked in the past.
    Also, of course, there has been litigation and the 
reporting of deaths, accountability.
    Mr. Coble. That is encouraging.
    Mr. Sedgwick, regarding race, African-American, Caucasian, 
Hispanic, is there any sort of breakdown ratio-wise there to 
the number of deaths in custody?
    Mr. Sedgwick. I can provide that information for you in 
some detail. If you don't mind, I would prefer to give you the 
response to that in writing, just so I make sure that it is 
accurate.
    Mr. Coble. That would be fine.
    Thank you all for being with us.
    Thank you, Mr. Chairman.
    Mr. Scott of Virginia. Thank you.
    We have a few other questions, if you would.
    I recognize myself for 5 minutes.
    Mr. Sullivan, is there evidence of underreporting?
    Mr. Sullivan. No, I don't think so. I think we have 100 
percent of the State prison system, but 99 percent of the 
jails, but I get back to I don't think this program has the 
respect that it should have.
    And I get back to what I keep bringing up, that if the 
details of each report was on the Web site, I think people 
could verify that it actually did happen. And I go back to, if 
I could just elaborate, I think the name of the person deceased 
should be on the Web site and I use the example of Los Angeles 
County jail.
    I think statistics would show that at least 200 to 300 
deaths occur there at that facility every year. People have 
talked about maybe taking the names and just having the details 
without the names.
    Well, I don't think you would be able to pinpoint exactly 
who this particular individual is without that name being 
attached. Now, certainly, in smaller jails, et cetera, where 
death is a rare event, you would be able to know. But in your 
large urban jails, you have many more deaths and that is why I 
feel that the entire report should be transferred to the BJS 
Web site.
    Mr. Scott of Virginia. Thank you.
    Mr. Sedgwick, what do you do to audit the numbers to make 
sure you are getting as accurate a report across the Nation as 
possible?
    Mr. Sedgwick. In designing a survey or a data collection 
instrument such as we use for DCRA, we spend a lot of time and 
pay a lot of attention to the design of the request for 
information, the form that has to be filled out and so on. We 
then issue that request for information. We get the responses 
back.
    In terms of a specific audit for us to be able to go in and 
read the records ourselves, we don't have that type of 
capability or capacity to do it.
    Mr. Scott of Virginia. As Mr. Sullivan has suggested, if 
you have a name of someone you know through media reports or 
otherwise that has died in custody, do you check to see if 
their name would have been reported if you don't do things like 
that?
    Mr. Sedgwick. We could do that on a case-by-case basis.
    Mr. Scott of Virginia. On a random basis, just to see if 
you are getting accurate numbers.
    Mr. Sedgwick. It could be done. We do not routinely do that 
now.
    Mr. Scott of Virginia. In the reporting, is there evidence 
that some facilities have a lot more deaths or proportionately 
a lot more deaths than others?
    Mr. Sedgwick. There are variations across facilities.
    Mr. Scott of Virginia. Exactly what is made available to 
the public?
    Mr. Sedgwick. First of all, we have the public reports that 
are issued. I have mentioned two that have already been 
released and another that is due in October, and those are 
distributed quite widely and accompanied by press releases.
    In addition, public access to data tapes and, also, data 
tapes that are available for research use are made available 
through the archives at the University of Michigan.
    That process, I have to tell you, lags behind the 
dissemination of the paper reports.
    Mr. Scott of Virginia. So if a researcher wanted to do some 
research, they could get to the original data.
    Mr. Sedgwick. They can get to a restricted use data tape 
that contains all of the information that we have, but to get 
that, they first have to go through an institutional review 
board process and then sign a----
    Mr. Scott of Virginia. Confidentiality?
    Mr. Sedgwick [continuing]. Confidentiality statement, as 
well as a statement that their access to this data tape is for 
research purposes only.
    Mr. Scott of Virginia. So for legitimate research purposes, 
they can get to the----
    Mr. Sedgwick. We are in the process of making those tapes 
available as I speak. Public access data tapes are different.
    Mr. Scott of Virginia. Ms. Gainsborough, do you have any 
evidence that many of the deaths are preventable?
    Ms. Gainsborough. It is very hard to get that kind of 
evidence absent the sort of investigation that would be 
required on an individual basis. But certainly we do know the 
results from litigation, for example, where it has been quite 
clearly established that there has been deficient medical care.
    As Congresswoman Waters already spoke about, in California, 
in particular, there have been endlessly documented examples of 
really poor health care in the prison system there, which is 
finally beginning to receive the kind of attention that it 
needs.
    But it is always tough. Prisons are very closed 
institutions and it is extremely difficult, particularly when 
the information coming out from prisons is fed through the 
prison administration, who clearly may have a different agenda 
to the family of the prisoner, who is often kept in the dark 
about what went on.
    Mr. Scott of Virginia. Thank you.
    My time has expired.
    The gentleman from Virginia?
    Mr. Forbes. Thank you, Mr. Chairman.
    And, once again, thank all of you.
    When we are up here, one of the things--I support the 
reporting act, but one of the things we always like to do is 
take apples and oranges and separate them and make sure we have 
the facts.
    And one of the things--this reporting act came out in 2000, 
I believe, is that true, Mr. Sedgwick? But we have had this 
decline in homicides and murders since the 1980's.
    And, Mr. Sedgwick, at some point in time, if you could give 
us a charting of how that fell, because we can't say that all 
this came because of this reporting act, because some of the 
statistics I was looking at, the 93 percent drop in suicide 
rates in jails, I mean, that was from 1983 to 2002 and this 
would be a truly miraculous act if it just was 2 years and it 
had all of a sudden reached that 93 percent.
    The other thing, just to make sure we are getting a full 
disclosure of what we have here, while we have this egregious 
situations, like Ms. Scott went through, and we all want to 
stop those, Mr. Sedgwick, isn't it also true that most States 
had no prisoner homicides during the course of a year?
    The second thing is, it is true that from 2001 until 2002, 
43 percent of all the prison murders took place in just three 
States--California, Texas and Maryland--according to a BJS 
report.
    The other thing that is interesting to note is this, that 
during 2002, for example, while we are talking about the 
homicide rates in our prisons, the homicide rate in the general 
population was greater than it was in the prisons and the 
jails. So you actually had a lower homicide rate in prisons and 
jails than you had in the U.S. population over a whole. Is that 
correct for 2002?
    And the mortality rate in State prisons from 2001 to 2004 
was 20 percent lower in State jails than it was for all of us 
who weren't in the jails. So while we recognize some of these 
statistics, we do have to kind of put a face on them.
    And one last thing. From 2000 to 2002, White inmates were 
six times more likely to commit suicide in a jail than African-
American inmates and three times more likely than Hispanic 
inmates.
    So when we are looking at this, reporting is important, the 
statistics are important, but we also have to recognize that a 
lot of these homicides and murders concentrated in a few 
States. Overall, the system seems to be doing a fair job, just 
based on some of the reporting, and at least that the mortality 
and homicide rates that we are seeing, sometimes they are 
better inside the jails than they are outside for the general 
population.
    Am I distorting that all, Mr. Sedgwick, or is that a fair--
--
    Mr. Sedgwick. No. I think you summarized that very 
accurately.
    Mr. Forbes. Good, good. And if you could just help us with 
that charting. I don't want to overload you with stuff, but 
that would just help us to take a look and make sure we are 
doing the right things on the reporting.
    But, again, thank you all for being here.
    Mr. Chairman, I yield back.
    Mr. Scott of Virginia. Does the gentlelady from California 
have any additional questions?
    Ms. Waters. If I may, just for a minute.
    Mr. Scott of Virginia. The gentlelady is recognized for 5 
minutes.
    Ms. Waters. Thank you.
    I would like to get back to my concerns about the requests 
for medical attention that are ignored or the family's request 
for someone to investigate the complaints of their relatives.
    And the reason that I want to do this is because some of 
these inmates die. And I want to know, I would like to know--
have information about the lawsuits or the number of 
accusations against the facility that is alleged by families 
about the death of their relatives while they are incarcerated.
    Do you have that information?
    Mr. Sedgwick. No, I don't. That is not part of the 
information that we collect under DCRA.
    Ms. Waters. That is not included. Do the various facilities 
have that information?
    Mr. Sedgwick. I couldn't speculate on that. I would assume 
that--well, I won't assume. I won't speculate on State 
institutions that I don't know anything about.
    Ms. Waters. Has this ever been a discussion that you have 
had with anybody about the accusations of negligence inside the 
prisons as it relates to requests for medical assistance?
    Mr. Sedgwick. It has not been part of the discussions that 
we have had about implementing the provisions of DCRA. We do, 
under the provisions of DCRA, collect information on medical 
care that was made available to inmates who we then collect 
information on because they subsequently die.
    So we are able to and we have summarized in the reports 
that we have put out and, most recently, the one on medical 
causes of death of jail and prison inmates, we were able to 
give information or summarize information of what percentage of 
inmates who subsequently died were offered medical care and 
what sorts of care.
    So we were able to gather that kind of information. But the 
type of information that you are talking about is not 
information that we have collected under the provisions of DCRA 
nor am I sure how we would go about trying to get that 
information.
    Ms. Waters. So the information that you collect, it 
describes death. It places the deaths in various categories.
    Mr. Sedgwick. Exactly.
    Ms. Waters. So you would have, for example, if I need--
well, I will ask you. Do you have information about HIV and 
AIDS?
    Mr. Sedgwick. Yes, we do, absolutely.
    Ms. Waters. And could you help us? What do you show? What 
are the numbers?
    Mr. Sedgwick. I actually have that in front of me. The rate 
of death from AIDS in State prison has dropped 85 percent in 
the last years of the preceding decade. So from 1995 to 2000, 
it dropped 85 percent. That compares to the mortality rate from 
all other illnesses, which has been rising.
    The non-AIDS mortality rate in State prisons has risen 
about 35 percent between 1980 and 2000.
    Ms. Waters. What was your first----
    Mr. Sedgwick. The first statistic was on AIDS deaths the 
rate has dropped 85 percent in the last 5 years of the 1990's.
    Ms. Waters. Well, what was it in the 5 years before that?
    Mr. Sedgwick. I don't know the specific rate of death, but 
I could get that information for you, if you would like.
    Ms. Waters. Yes. I mean, I would like to know.
    Mr. Sedgwick. I believe in our----
    Ms. Waters. I would like to know what you are describing 
when you say it has dropped 85 percent. I don't----
    Mr. Sedgwick. Well, what we do is we would calculate a 
mortality rate. What is the rate of death from AIDS per certain 
number of inmates?
    And then we would compare the rate in, for example, 1995--
--
    Ms. Waters. I know how you get there. It is not complete 
information for us when we are looking at this kind of stuff. 
So I would appreciate knowing what it was the 5 years previous 
to.
    Mr. Sedgwick. What the death rate from AIDS was?
    Ms. Waters. Yes.
    Mr. Sedgwick. I would be happy to get that information for 
you.
    Ms. Waters. And I would like to know raw numbers, the exact 
numbers, the exact numbers. If there were 100 deaths in the 
first 5 years and it has dropped 85 percent, I would like to 
know exactly how many, what the raw numbers were.
    Mr. Sedgwick. So you would like the absolute numbers, as 
well as the rates.
    Ms. Waters. That is right. That is right.
    Mr. Sedgwick. We can get that for you.
    Ms. Waters. Absolutely. I yield back the balance of my 
time.
    Mr. Scott of Virginia. Thank you. I thank the gentlelady 
for her questions.
    And I would like to thank all of our witnesses for your 
testimony.
    I particularly want to thank Ms. Scott for being with us 
today. You are using your tragedy to make sure this doesn't 
happen to anyone else, and we certainly appreciate you being 
here, as well as all of the witnesses.
    Without objection, the hearing is adjourned.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    The ``Death in Custody Reporting Act of 2000,'' requires 
jurisdictions to report any prisoner/inmate/detainee death, and the 
circumstances surrounding that death to the Justice Department 
annually. The act expired on 12/31/2006, and is introduced for 
reauthorization as the ``Death in Custody Reporting Act of 2007.''
    Before the act was passed there was no standardized reporting in 
the United States and it was suspected that over 1,000 persons died 
while in custody each year.
    Until the law passed in 2000, the only light shed on deaths in 
custody was by researchers and activists who began focusing on the 
issue in the early 1980s.
    In 1995, after conducting a one-year investigation, the Asbury Park 
Press of New Jersey ran a series of award-winning editorials that 
brought the seriousness of the lack of reporting to the nations's 
attention. The editorials detailed abuses throughout the criminal 
justice system including racism, overzealous police interrogations, 
cover-ups and general police incompetence, which prompted Congressional 
action.
    Since the early 1980s and continuing through 2005, the death rate 
of persons in custody has dropped by 93%.
    There is still work to do. BJS states that although prisons and 
jails have become forthcoming in their reporting, the reporting of 
deaths of people during arrest and during transport to jail is still 
suspect. The circumstances surrounding the deaths is not complete and 
BJS suspects that not all deaths are reported.
    We must now focus on improving the law. It has done much to 
overcome the problems in the institutions but we must widen the focus 
to police officers affecting arrests and transporting arrestees.
    We cannot allow the very officers charged with protecting and 
serving the public to be unchecked when it comes to the safety of 
persons in their custody. Whether someone in their custody dies through 
a violent encounter during arrest, through negligence or for any 
reason, there must be a proper accounting of the death. Justice demands 
nothing less.

                                <F-dash>

 Prepared Statement of the Honorable Betty Sutton, a Representative in 
  Congress from the State of Ohio, and Member, Subcommittee on Crime, 
                    Terrorism, and Homeland Security
    Mr. Chairman, I'm pleased to add my voice in support of H.R. 2908, 
the ``Death in Custody Reporting Act of 2007.''
    Mr. Chairman, you have been an advocate for the national reporting 
of in-custody deaths for more than 10 years now, and I admire your 
dedication in ensuring the public has access to this important 
information.
    Transparency and accountability are standards to which law 
enforcement agencies at every level of government must aspire. We must 
have a criminal justice system worthy of the trust of the American 
people, and we must have law enforcement agencies who consistently meet 
the highest standards of accountability.
    The Death in Custody Reporting Act is an example of how a small 
change in the law can yield enormous benefits. In the past, lax 
reporting requirements may have resulted in tragedies that will never 
find a full explanation. Individuals died in custody without any 
explanations or records as to why they were there in the first place.
    A 1995 investigation in the Asbury Park Press found that 
approximately 1,000 individuals died in custody each year, many under 
suspicious circumstances that were poorly documented by those entrusted 
with their safety.
    But after the Death in Custody Reporting Act was passed in 2000, we 
could for the first time systematically identify the ways in which our 
criminal justice system fell short.
    I am optimistic that with this reauthorization, we can do even 
more. There is a wealth of information contained in the reports 
generated under this act, and that presents us with an opportunity for 
real action leading to real improvements in the administration of 
justice.
    This is common sense legislation and the mechanisms for data 
collection on in-custody deaths are already in place. The Death in 
Custody Reporting Act has done a world of good in increasing 
accountability and it should be reauthorized.
    Thank you, Mr. Chairman. I yield back the balance of my time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
